CONNOR & CONNOR, tic

TRIAL LAWYERS

302 PARK AVENUE SE
AIKEN, SOUTH CAROLINA 29801
803.226.0543 (p)
1.800.480.9715 (8

August 18, 2021

Clerk, United States Supreme Court
1 First Street NE
Washington, D.C. 20543

Re: No. 21-196, SNH SE ASHLEY RIVER TENANT, LLC; et al., v. THAYER W.
ARREDONDO, AS PERSONAL REPRESENTATIVE OF THE ESTATE OF
HUBERT WHALEY, DECEASED

Dear Sir:

We are counsel for the Respondents in the above-styled case. Because the opinion of South
Carolina’s Supreme Court plainly shows why this case does not merit review by this Court,
Respondents waive the right to file a brief in opposition as provided by Rule 15.5. The
Respondents respectfully request leave to file an opposition to this petition if the Court
requests such a response.

yours,

   

nheth L. Connor
302 Park AVE SE
Aiken, South Carolina30901
(803) 226-0541
ken@theconnorfirm.com

cc: Via United States Mail, First Class, and email

David N. Allen (david.allen@nelsonmullins.com)

G. Mark Phillips (mark.phillips@nelsonmullins.com)
Robert W. Whelan (robert.whelan@nelsonmullins.com)
Benjamin S. Chesson (ben.chesson@nelsonmullins.com)
NELSON MULLINS RILEY & SCARBOROUGH LLP
301 South College Street

Charlotte, NC 28202

E. Joshua Rosenkranz (jrosenkranz@orrick.com)

Thomas M. Bondy (tbondy@orrick.com)
Abigail Colella (clopez-morales@orrick.com)

www.TheConnorFirm.com
Cesar A. Lopez-Morales (clopez-morales@orrick.com)
Ethan P. Fallon (efallon@orrick.com)

ORRICK, HERRINGTON & SUTCLIFFE LLP

51 West 52nd Street

New York, NY 10019
WAIVER

SUPREME COURT OF THE UNITED STATES

No. 21-196
SNH SE Ashley River Tenant, LLC et al. Thayer W. Arredondo
(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© _ Iam filing this waiver on behalf of all respondents.

Oo J only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
© lam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
oO I am not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clpr’ jce, 1 First Street, NE, Washington, D.C. 20543).

Signature:
Date: 8/18/21
(Type or print) Name Kenneth Luke Connor

© wr. O Ms. © wos. © Miss

Firm Connor & Connor LLC

Address 302 Park Ave SE

City & State Aiken, SC Zip 29801
Phone 803-226-0543 Email ken@theconnorfirm.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

David N. Allen, G. Mark Phillips, Robert W. Whelan, Benjamin S. Chesson, E. Joshua Rosenkranz,
Thomas M. Bondy, Abigail Colella, Cesar A. Lopez-Morales, Ethan P. Fallon
